<html>
<title> - [H.A.S.C. No. 113-46]PAST, PRESENT, AND FUTURE IRREGULAR WARFARE CHALLENGES: PRIVATE SECTOR PERSPECTIVES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 113-46]

                       PAST, PRESENT, AND FUTURE
                     IRREGULAR WARFARE CHALLENGES:
                      PRIVATE SECTOR PERSPECTIVES

                               __________

                                HEARING

                               BEFORE THE

    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 28, 2013



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                      U.S. GOVERNMENT PRINTING OFFICE

  82-461                   WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b4c5b446b485e585f434e475b0548444605">[email&#160;protected]</a>  




    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman

JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                SUSAN A. DAVIS, California
BILL SHUSTER, Pennsylvania           HENRY C. ``HANK'' JOHNSON, Jr., 
RICHARD B. NUGENT, Florida               Georgia
TRENT FRANKS, Arizona                ANDRE CARSON, Indiana
DUNCAN HUNTER, California            DANIEL B. MAFFEI, New York
CHRISTOPHER P. GIBSON, New York      DEREK KILMER, Washington
VICKY HARTZLER, Missouri             JOAQUIN CASTRO, Texas
JOSEPH J. HECK, Nevada               SCOTT H. PETERS, California
                Peter Villano, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                          Julie Herbert, Clerk












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Friday, June 28, 2013, Past, Present, and Future Irregular 
  Warfare Challenges: Private Sector Perspectives................     1

Appendix:

Friday, June 28, 2013............................................    25
                              ----------                              

                         FRIDAY, JUNE 28, 2013
PAST, PRESENT, AND FUTURE IRREGULAR WARFARE CHALLENGES: PRIVATE SECTOR 
                              PERSPECTIVES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Intelligence, Emerging Threats 
  and Capabilities...............................................     1
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Intelligence, Emerging Threats and Capabilities     1

                               WITNESSES

Atallah, Rudolph, Chief Executive Officer, White Mountain 
  Research LLC...................................................     2
Cohn, Mark, Vice President, Engineering and Chief Technology 
  Officer, Unisys Federal Systems................................     4
Costa, Barry, Director, Technology Transfer, The MITRE 
  Corporation....................................................     5
Jacobs, Scott E., President, New Century US......................     7

                                APPENDIX

Prepared Statements:

    Atallah, Rudolph.............................................    29
    Cohn, Mark...................................................    41
    Costa, Barry.................................................    50
    Jacobs, Scott E..............................................    62

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Franks...................................................    79

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    99
 
PAST, PRESENT, AND FUTURE IRREGULAR WARFARE CHALLENGES: PRIVATE SECTOR 
                              PERSPECTIVES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Subcommittee on Intelligence, Emerging Threats and 
                                              Capabilities,
                             Washington, DC, Friday, June 28, 2013.
    The subcommittee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
TEXAS, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Thornberry. The subcommittee will come to order. We are 
going to be interrupted by votes here shortly, so we are trying 
to make the best of a difficult situation.
    I will just say that it has been a continuing interest of 
this subcommittee on the lessons learned from irregular warfare 
and how we go forward. And so today's hearing is an attempt to 
get a cross-section of private-sector opinion about that 
subject, and we very much appreciate the witnesses being here 
and, in advance, your patience in a rather constrained day.
    With that I yield to the ranking member, Mr. Langevin.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
  RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE, 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here; thank the chairman for holding this 
hearing. In interest of time and brevity, in light of the fact 
that we will be pulling votes, I will submit my opening 
statement for the record, but again thank our witnesses for 
being here.
    I yield back, Mr. Chairman.
    Mr. Thornberry. Thank you. Let me turn it over to our 
witnesses: Mr. Rudy Atallah, Chief Executive Officer of White 
Mountain Research; Mr. Mark Cohn, Vice President, Engineering 
and Chief Technology Officer for Unisys Federal Systems; Barry 
Costa, Director, Technology Transfer, The MITRE Corporation; 
and Scott Jacobs, President of New Century US. Again thank you 
all for being here.
    We will turn it over to you, and, without objection, your 
entire written statement will be made part of the record, and 
we will turn it to you to summarize your statement, if you 
will. Mr. Atallah.

 STATEMENT OF RUDOLPH ATALLAH, CHIEF EXECUTIVE OFFICER, WHITE 
                     MOUNTAIN RESEARCH LLC

    Mr. Atallah. Mr. Chairman, honorable members of the 
subcommittee, thank you for the invitation. Let me just dive 
right in and outline a few of my thoughts.
    I'm going to start by discussing a few points on the 
challenges to irregular warfare as we see it from our side, 
from my company. The first challenge is understanding non-
Western friends and foes. Perhaps the greatest challenge to IW 
[irregular warfare] observed since 9/11 attacks is our 
inability to accurately understand and therefore project how 
and why nonstate allies and adversaries, including those 
inspired by militant strands of political Islam, think, 
organize, and operate.
    Part of this problem set arises from our institutional 
tendencies towards mirror imaging; that is, thinking like 
professional soldiers, analysts, and policymakers rather than 
non-Western activists, bureaucrats, or militants, motivated as 
much by identity belief or cultural imperatives as they are by 
traditional notions and strategy.
    Challenge number two is our overreliance on technology. 
Despite recognition since 9/11 of the importance of 
sociocultural understanding, the reality of our approach to IW 
remains focused on zeroes and ones. We continue to rely 
increasingly on intelligence derived from technical sources and 
less on humans. Context derived from understanding and thinking 
like others takes a back seat to information.
    Beyond the monetary burden associated with overreliance on 
warfighting technologies, our ability to grasp and contend with 
complex sociocultural issues is gradually eroded. Our soldiers 
have grown accustomed to possessing enormous amounts of 
intelligence data at their fingertips that provide answers to 
almost every question arising within the operating 
environments. But whether the financial resources required to 
sustain this technology will be there in the coming lean years 
is unknown.
    SOF [special operations forces] units will have to return 
to more traditional modes of working as small units conducting 
operations by, with and through local military liaison forces 
and other local surrogates. Although advanced technologies will 
certainly play a role in these cases, these small units will 
succeed or fail based on their ability to analyze, fight, and 
navigate within the local
environment.
    The third challenge is defining the political outcomes of 
IW. It is a well-known maxim that war is politics by other 
means. A clear understanding of our objectives and strategies 
in waging IW is essential, essentially given the primacy of 
influence and winning at war's moral level. Further, the clear 
articulations of these objectives, basically our desired end 
state, to the American public is also key, given this necessity 
to generate support for the long-term operations and patience 
that characterize effective irregular warfare.
    Fourth, our fourth challenge is limited to SME [subject 
matter expertise] immersions. Another apparent challenge in 
combating irregular warfare is basically having a lack of 
reliable subject matter expertise in some regions of the world. 
Generating a meaningful understanding of a country or a 
region's sociocultural issues requires years of immersion.
    It has been our observation that when DOD [Department of 
Defense] reacts to a new issue, it often reaches out to 
academia for answers. However, it is often the case that 
academic advisors have limited understanding of ground-truth 
sociocultural context because their expertise is gleaned from 
desktop research or coupled with trips to a distant capital. 
Instead of turning to individuals who have spent meaningful 
time on the ground conducting field work and developing 
objective, qualitative perspectives on the challenges at hand, 
DOD too often invests in shallow and often biased expert 
opinions. The result is poor, often skewed understanding of 
both the problem set and the environment that is nevertheless 
translated into IW planning.
    Recommendations. First, we need to expand our human 
capabilities. As American warfighters, we will always have the 
ability to do something, but having good intelligence coupled 
with solid context allows to us do the right thing.
    Second, we need to couple an expanded HUMINT [human 
intelligence] capability with new methods of sociocultural 
training and alternative analysis programs that promote viewing 
the environment through the eyes of non-Westerners.
    Third, continued private-sector partnerships as well as--
are essential for DOD. Businesses like White Mountain Research 
that work overseas have a great deal to offer as the market 
forces us to stay in tune with foreign political and 
sociocultural issues in order to compete. As we conduct our 
peer-to-peer research and keep pace with local politics in 
foreign countries, DOD can gain richly from our experience.
    Fourth, we must bear in mind everything has an economic 
limitation. Based on this, at the political level we should 
determine what we want our objectives to look like and define 
and calibrate appropriate IW resources to meet it.
    Fifth, the lack of continuity in DOD must be addressed. 
Most soldiers never exceed more than 2 to 3 years in an 
overseas assignment. This does not allow for sustained 
familiarity with the host country that is so crucial in IW. 
This is why programs like AFPAK [Afghanistan-Pakistan] Hands 
must be continued and expanded to other regions of the world. 
These programs can dovetail well with regional centers of 
excellence, like the Africa Center for Strategic Studies or the 
George C. Marshall Center.
    Finally, I will conclude with that more effective and 
systemic screening procedures should be instituted for academic 
advisors. These should be vetted for not only their subject 
matter and knowledge, but also their objectivity. When advising 
on a far-flung place like Mali, Nigeria, extensive on-the-
ground experience should also be a prerequisite before there 
are any people put in position to educate the warfighters. We 
have witnessed too many times the unfortunate consequences of 
unprepared or biased advisors hired to provide direction to 
crucial DOD initiatives.
    Thank you.
    [The prepared statement of Mr. Atallah can be found in the 
Appendix on page 29.]
    Mr. Thornberry. Thank you.
    Mr. Cohn.

 STATEMENT OF MARK COHN, VICE PRESIDENT, ENGINEERING AND CHIEF 
           TECHNOLOGY OFFICER, UNISYS FEDERAL SYSTEMS

    Mr. Cohn. Good morning.
    Mr. Thornberry. Hit the button and get closer.
    Mr. Cohn. Thank you very much.
    Good morning, Chairman Thornberry, Ranking Member Langevin 
and other distinguished members of subcommittee. I am Mark 
Cohn, Chief Technology Officer for Unisys in our Federal 
Systems division. We thank you for inviting Unisys to 
participate in this hearing about lessons learned in irregular 
warfare challenges in today's operating environments and how 
industry can contribute to enhancing our security.
    Around the world and here at home, Unisys is a leading 
provider of integrated security solutions, many of which 
incorporate advanced biometric and identity management 
technologies. For example, we delivered a national identity 
system for Angola with multiple biometrics that required mobile 
enrollment in the villages under austere conditions. It 
provides counterfeit-resistant proof of identity to a widely 
dispersed population, representing a cornerstone of citizenship 
in this emerging democracy as proof of their right to vote and 
for access to government services.
    Recently we delivered a system for Mexico that provides for 
storage of 110 million identity records, comprising 
fingerprints, iris scans, and facial images, with a capacity to 
accept 250,000 enrollments daily.
    To defend the Nation and defeat our adversaries engaged in 
irregular warfare, the Defense Department requires capabilities 
in counterinsurgency, counterterrorism, foreign internal 
defense, and stability operations. Success depends on 
separating enemy combatants from the civilian population or the 
innocent members of the civilian population.
    Biometrics can be used to record the identity of enemy 
combatants, to link individuals to events such as IED 
[improvised explosive device] explosions. So in irregular 
warfare, a primary U.S. objective is also to create a safe and 
secure environment for friendly populations and friendly 
military forces to mitigate disruptions to their daily lives. 
Providing that safe environment is complex as the enemy is 
generally well concealed within the population.
    Another challenge in irregular warfare is being able to 
distinguish loyal indigenous security forces from disloyal foes 
who can procure uniforms and equipment that allow them to blend 
with regular forces and conduct surprise attacks in 
installations or within government buildings.
    It is important to recognize there are limitations to the 
biometric systems and methods available to U.S. military forces 
in theater. Data capture generally requires close physical 
proximity to a subject who is usually uncooperative, and relies 
on equipment and a system architecture that reportedly fails at 
times to meet vital needs.
    Today's tactical collection equipment employs custom-built 
integrated mobile kits that can be bulky and cumbersome, and 
there are problems with data synchronization. Industry can help 
by taking advantage of new mobile processing platforms derived 
from consumer mobile devices extended with ruggedized biometric 
sensors, and by implementing interfaces in a unified 
architecture that streamlines uploads to the authoritative 
database so it can return match/no-match results to the 
operators quickly.
    It is essential that transmitted and stored identity 
information and biometrics stay coupled, because separation of 
the data undermines the system's speed, accuracy, and ability 
to detect enemy combatants.
    The relative cost and performance of biometric systems has 
improved dramatically in the last 12 years. There is greater 
reliance on multiple biometrics that can interoperate between 
vendors. There are multiple examples of large-scale systems 
implemented rapidly at predictable cost because we used a 
framework of proven components. That enables us to deliver 
systems that are flexible, scalable, secure; to utilize 
multiple workflows and biometric modalities without complex 
custom software coding; and to be extensible through standards-
compliant open interfaces.
    There has also been a great expansion in the diversity of 
use cases for biometrics. For example, in Canada we implemented 
a system for the Port of Halifax that uses vascular, that is 
vein pattern recognition, for access to the port's 5,000 
workers. We did the restricted area identity card that uses 
fingerprints and iris scans to secure Canada's 28 major 
airports.
    In all regions of the world we see widespread consumer 
acceptance of biometrics. There is significant commercial 
interest in banking and other regulated industries because 
biometrics can simplify the user experience while increasing 
security when compared with passwords and PINs [personal 
identification number].
    The Department of Defense today employs a user 
authentication approach that relies on a common access card and 
a PIN. This is highly secure, but can be impractical. A 
commercially available biometrics-driven alternative used today 
in the banking industry is more convenient, less expensive and 
time-consuming to administer, eliminates the problem of 
transport and lockout during PIN reset, and can address risks 
that the current CAC [common access card] and PIN model cannot, 
such as the impostor threat.
    So in conclusion, we believe the Department of Defense can 
expect these international and industry developments are in 
many cases applicable to the challenges confronted in irregular 
warfare, and we think they can help improve internal security 
and stability through U.S. and partner-country initiatives. 
Unisys looks forward to supporting that progress both here and 
overseas.
    Thank you.
    [The prepared statement of Mr. Cohn can be found in the 
Appendix on page 41.]
    Mr. Thornberry. Thank you.
    Mr. Costa, I think we have time to get your opening 
comments.

 STATEMENT OF BARRY COSTA, DIRECTOR, TECHNOLOGY TRANSFER, THE 
                       MITRE CORPORATION

    Mr. Costa. Chairman, Mr. Langevin, and members of the 
subcommittee, thank you for inviting me today to speak about 
irregular warfare challenges, specifically in my case the value 
of sociocultural situational awareness and the technologies and 
data that enable such awareness and support rapid and effective
decisionmaking.
    What I will describe is 21st-century radar, technology that 
can provide us with rapid and effective insight into the 
changing human terrain for irregular warfare as well as other 
missions. Just like an airborne camera allows us a view of the 
physical terrain, and infrared lets us see into the night, 
there are now technologies that allow us a view of the human 
terrain to include populations, networks, groups, and 
behaviors.
    The Nation must adapt its methods and create tools that 
reflect the realities of national security in a new age of 
real-time global information flow, and we must understand and 
engage in the public dialogue created by these new 
communication media. As demonstrated by the swift changes 
brought about by the Arab Spring, we must rapidly sense, 
understand, and, if necessary, engage with words and deeds to 
positively shape the environment.
    While technology can't replace deep human insight, we 
believe that empirically derived, scientifically grounded 
technologies can help us understand the human terrain. The 
defense community has built a science and technology foundation 
necessary for studying and understanding sociocultural 
behavior. Given that this technology foundation allows us 
insight into the human terrain, we are now better positioned to 
pursue effective courses of action in the full range of 
military operations.
    These new technologies are enablers for irregular warfare, 
allowing us to identify extremist networks, groups, and key 
influencers. Additionally, these technologies support our 
analysts and decisionmakers as they work to mitigate irregular 
warfare threats.
    Much remains to be done to evolve and adapt these sense-
making capabilities to play a vital role in current and future 
missions. Recent rapid and profound shifts in the geopolitical 
context have brought renewed attention to challenges such as 
hostile nonstate actors who may be pursuing weapons of mass 
destruction, nation-state instability driven by drug economies 
and transnational criminal issues, humanitarian and disaster 
relief, and cyber threats. These technologies can give us some 
more nuanced insight into global challenges, but this is just 
the beginning, and continued research is likely to make 
significant additional progress.
    However, we must conduct such research with a keen eye 
toward quick and effective transitions to those warfighters, 
programs and organizations that need them. While there are many 
difficult challenges in this area, some of which will take 
years to solve, there are technologies and methods available 
today that can help us find key information within this deluge 
of data and understand the effectiveness of our words and 
actions upon those with whom we
engage.
    Experience to date suggests an exciting future in which 
global information, applied research and analytics are fully 
and dynamically integrated; however, DOD and the Nation are not 
yet at that desired end state. To get closer, DOD should 
maintain the momentum created over the past several years by 
supporting promising research that will enable the capabilities 
most relevant to future national security demands.
    Let me leave you with this thought: If DOD had ended its 
research investment in traditional radar technologies after 
just 5 years, the program would have ended around 1939, leaving 
us with a rudimentary and tantalizing potential for long-range 
sensing. Social radar is at that tantalizing stage, and we can 
see the promise. Drones and satellites alone can't detect 
violent speech or determine how our adversaries' narrative is 
spreading. We need a global and persistent indications and 
warning capability. We call that social radar.
    [The prepared statement of Mr. Costa can be found in the 
Appendix on page 50.]
    Mr. Thornberry. Thank you.
    Mr. Jacobs, if you don't mind, I think we will go ahead and 
take your opening statement. Now, there are still 356 Members 
who haven't voted yet, so I think we will have time to do that, 
and then we will come back for questions.

    STATEMENT OF SCOTT E. JACOBS, PRESIDENT, NEW CENTURY US

    Mr. Jacobs. Thank you, Mr. Chairman, Ranking Member 
Langevin, members of the subcommittee. I thank you for your 
opportunity to appear before this panel today. And as a retired 
NCIS [Naval Criminal Investigative Service] special agent and a 
graduate of the Congressional Fellowship Program, I am acutely 
familiar with the leadership that this committee does every 
day, and it is that leadership that is vital to our Nation's 
security.
    New Century US is a privately held firm that is the 
American subsidiary of the London-based New Century 
International. Currently our firm is executing a contract with 
the U.S. Government to provide training that supports the 
professionalization of the Afghan National Army, while New 
Century International continues to provide training and 
mentoring to the Afghan National Police and the Afghan National 
Army in support of the NATO [North Atlantic Treaty 
Organization] mission in Afghanistan. In short, our programs 
and the collective experience of New Century personnel has 
positioned our firm as both the keen observer of irregular 
challenges worldwide and as a knowledgeable proponent of 
irregular solutions.
    At New Century we believe a focus on improving the capacity 
of the Afghan military and security forces and other host 
nation security forces is a wise, cost-effective and 
intelligent investment for supporting American foreign policy 
objectives because it offers a potential to build an effective 
leave-behind and self-sustaining indigenous security force 
after a large-scale U.S. military presence is reduced or 
becomes unavailable.
    With that in mind, our firm's flagship program is called 
Legacy and was first implemented in western Iraq province of al 
Anbar in 2008, and is currently being executed in Afghanistan. 
Aimed at improving the capability and capacity of the ANP 
[Afghan National Police] and ANA [Afghan National Army] forces, 
the current iteration of Legacy employs a specific doctrine and 
teaching methodology that is based on the experience of the 
British constabulary force, or Special Branch, in Northern 
Ireland during the conflict in the 1970s and 1980s.
    The value added of New Century approach lies in the 
methodology, but also of the deep experience found within the 
ranks of the personnel that work for New Century. These are 
former Royal Ulster Constabulary police officers that have 
worked tirelessly in Northern Ireland to defeat and disrupt the 
networks that perpetrated the violence in Northern Ireland.
    Since irregular threats abroad and Federal budget pressures 
at home are almost certain to continue, we believe the indirect 
and irregular approach will become increasingly important in 
the days ahead. That is why our firm embraces and supports the 
all-important ``by, with, and through'' creed of the Special 
Operation Force community as it applies to achieving U.S. 
foreign policy objectives.
    We view this indirect approach as practical and essential 
for working with foreign allies as well as for identifying and 
confronting irregular challenges around the globe, especially 
in environments requiring a limited counterinsurgency response 
or, as Admiral McRaven would say, a small footprint. Therefore, 
establishing carefully targeted assisted programs to develop 
and empower the local authorities of American allies would be 
wise.
    Just imagine America's strategic position if we were able 
to establish indigenous-led counterterrorism COIN 
[counterinsurgency] programs in states that struggle to defeat 
irregular networks. Imagine, too, the improved security posture 
and greater moral authority of America if both the State 
Department and the Department of Defense would combine efforts 
and jointly offer assessments to potential partners and allies.
    Three lessons learned that I would like to talk today that 
we have learned in Afghanistan. One, Special Branch-like 
activities to ultimately succeed need the U.S. military. The 
U.S. military must provide daily support to overall COIN 
doctrine and strategy. They must train for it, they must 
develop doctrine for it, and this must be embedded in the very 
mindset of how we wage war.
    Effective COIN efforts take time. We learned in Northern 
Ireland that it took over 20 years to penetrate the criminal 
networks that promoted the violence in Northern Ireland. It 
takes time.
    And final observation is actually a concern and pertains to 
the point just made about doctrine, training, and budgeting. 
Despite significant gains in the field, notwithstanding the 
2008 issuance of the DOD Directive 3000.07, the Department and 
each of the military services have remained somewhat listless 
with respect to this important subject. The 2008 directive 
assigned additional duties to SOLIC, the Special Operations/
Low-Intensity Conflict Office of the Assistant Secretary of 
Defense, for organizing lead roles defining, and guiding, and 
coordinating irregular warfare-related activities across DOD. 
Yet 5 years later we still do not see any tangible leadership 
on these issues anywhere in the Department. The 2010 
Quadrennial Defense Review and the 2012 Defense Strategic 
Guidance only lightly referenced the concept, and no true 
champion, no true champion has emerged for institutionalizing 
such lessons or for providing a sustainable budget.
    And I must point out--I know I am just about out of time, 
but this is a very critical point. General Stan McChrystal 
recently talked about it takes a network to defeat a network, 
going back to earlier comments of Mr. Atallah as well. And 
ironically this committee echoed his comments back in the 2011 
and 2012 National Defense Authorization Acts, an important 
point, where you praise the approach of the Legacy program in 
the committee report. And also the report noted special 
interest in the ``attack of the network'' approach. And you 
made two recommendations. Actually you directed the Secretary 
to provide you with two things: the applicability of Legacy 
program in other operations and regions where network-based 
threats are present, or where conditions are conducive to 
supporting these threats; and number two, very important point, 
options for an appropriate management structure within the 
Department to institutionalize and sustain the capabilities 
that Legacy and, I must emphasize, similar programs provide to 
the warfighter.
    And finally, in conclusion, we agree with both General 
McChrystal's assessment and your wise words after toiling years 
in the field doing this kind of capacity building, but we need 
a more visionary and effective leadership in the United States 
Government, just as more international partners and allies are 
required. Our Nation cannot do it alone. It simply cannot. 
``By, with, and through'' is an effective guiding principle for 
the United States in the years ahead. Our recommendation is for 
us to follow it.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Jacobs can be found in the 
Appendix on page 62.]
    Mr. Thornberry. Thank you all. Lots of interesting topics 
to follow up on. We will stand in recess while we vote, and 
they are estimating it will be about 45 minutes, so Pete will 
buy you all a cup of coffee in the back.
    Thanks, Pete.
    [Recess.]
    Mr. Thornberry. The subcommittee will come to order. Thank 
you all again for your patience. I think Mr. Langevin had 
another meeting he was going to try to grab, and then will try 
to be back with us.
    Let me go back to, as I say, each of you made a number of 
interesting points. Mr. Atallah, you said in your testimony--or 
one of the points you made is there is an overreliance on 
technology, and yet we talk about human terrain radar, which I 
am not exactly sure what that is, but I presume there is a 
technological component of that. The kinds of things we hear 
about are monitoring social media, for example, and detecting 
trends and that sort of thing.
    So I guess I would appreciate thoughts from each of you 
about this, I guess, question: Are we too dependent on 
technology, and are we looking to technology to solve what may 
be nontechnological problems?
    Mr. Atallah. Mr. Chairman, thank you very much for your 
question. I had to think long and hard about this, and, yes, we 
do rely heavily on technology, and I find it more with our 
younger generation that is actually entering the forces, they 
can't function without their devices.
    I am an Africanist. I spend a lot of time on the continent. 
And although cell phone technology, for example, on the 
continent is growing pretty quickly, there are remote areas in 
Mali, Niger, different places where various ethnic groups are 
not relying--don't use technology. So how do we metric those 
individuals? How do we figure out what those individuals are 
doing? So we come back to we are looking for solutions on 
Facebook or Twitter just to see what these individuals are 
doing, and we miss the important part.
    I think what we need to do is focus more on the basics. 
HUMINT, I pushed for that. Sociocultural training is important. 
We do a little bit of it, but we don't get into the depth that 
is required in order to understand. I was born and raised in 
Lebanon. When I understand a culture from its roots, and I 
speak the language, the last thing I want to do is go to 
technology to look for an answer. The first thing I want to do 
is to go to a human being that I know down the street that may 
have the answer. And that is where we are starting to miss the 
boat. We find ourselves today just sitting 7-, 8,000 miles away 
looking for an answer that is in front of us on a screen 
instead of having that granular HUMINT side that is important.
    Mr. Costa. Sir, I agree that deep human insight is 
required, and I agree that people like Mr. Atallah can't be 
replaced, but on the other hand, there are technologies that 
allow insight to him, to people like him, and to others, 
decisionmakers included, that can allow us to understand 
trends. Four billion, eight hundred million people have a cell 
phone right now, and most of the world will have a cell phone 
and be wired, wired so to speak, within the next decade. It is 
a lot of information that people are generating, that they are 
discussing on social media and in other forums, and that 
dialogue becomes increasingly important.
    It is not the only source. There are lots of other great 
data sources. There are lots of other great technologies and 
methods. But I would suggest that understanding this emerging 
dialogue and using these technologies to help foster 
understanding is critical. And there have been some great 
examples of successes doing that, but, again, it doesn't 
supplant just deep human understanding that people like Mr. 
Atallah can provide.
    Mr. Thornberry. When you talk about human terrain radar, 
what sorts of things are you talking about?
    Mr. Costa. A variety of technologies, sentiment analysis is 
one of them, emotion analysis is another one; technologies that 
model decisionmaking, others--technologies that even forecast 
instability. There is a system in use in the Department of 
Defense right now that forecasts long-term instability. So, as 
an example, will government X or will country X experience 
instability events in the next 6 months? There is a system that 
does that right now. It is not perfect; however, it provides 
deep insight to analysts studying that country and allows them 
to dig deeper into issues of interest. So those are the sorts 
of technologies that I am referring to.
    Mr. Thornberry. Mr. Cohn, if you all are putting in these 
ID [identification] cards in a variety of countries that don't 
have maybe as much technology as we do, what are some of the 
challenges that you have run into in implementing those 
technologies?
    Mr. Cohn. Thank you, Mr. Chairman. It is an interesting 
subject that fascinates us in the industry. I could probably 
spend an hour talking about that, but I would like to keep it 
brief, though.
    There are a number of sociocultural issues that we 
encounter that are quite striking. In Malaysia, where we happen 
to do the national ID, in that country they have religion that 
appears on the face of their ID card, which seemed like a 
pretty oddball concept to those of us. They happen to also have 
a default state religion that goes on there if you don't claim 
one. It is a different world.
    In the Middle East, where we do a lot of work, and Malaysia 
is one of the countries where this arises also, there are 
cultural concerns regarding how we enroll biometrics because of 
personal privacy. If you have a fingerprint sensor, and you use 
both hands, there is a tremendous aversion regarding hygiene. 
Therefore iris is used, say, for the expellee database 
[National Expellees Tracking and Border Control System] from 
the United Arab Emirates because you can still take a sample 
with a veil.
    So we see a lot of variation, and in candor, without 
getting down in the weeds regarding this sort of cottage 
industry of biometrics, the way we see it, it has to be tuned 
to the country and its culture. But the Prime Minister of 
Malaysia said in 1995, this will be a way that we catapult our 
country into the 21st century. They saw it as a big part of 
modernizing their economy, that they could have more 
participation because biometric verification would then be an 
inexpensive, widespread social good.
    When Pay By Touch, a U.S. company, went into bankruptcy, 
Singapore banks could no longer use fingerprint verification 
for banking. Malaysian banks that used to thumbprint under 
MyKad, their national ID card, could continue to do banking 
security with biometrics. The banks there have a key to unlock 
the card, and you can put your equivalent of an ATM [automated 
teller machine] card onto the same card the government issues, 
and they have a local e-Purse application so you don't have to 
carry cash when you go to their equivalent of a 7-Eleven. So in 
other words, this allows people to participate in a modern 
economy in a way that we don't even think of in this country. 
And I could go on about some of the Latin American differences 
as well whenever you would like.
    Mr. Thornberry. Mr. Jacobs, can you reflect on technology 
and how it has applied, and the challenges, I guess. You talked 
about training the Afghan National Army. I would presume in 
Afghanistan you run into some of those as well.
    Mr. Jacobs. Absolutely.
    I would first like to go back to the question you asked Mr. 
Atallah here. The purpose of the Legacy program is to penetrate 
a network, the criminal network, drug network, terrorist 
network. And then through that penetration how you do that is 
by developing sources, informants, and tasking informants to 
get information. And then based upon that information, you do 
something with it; you take action against that network to 
disrupt it. And a person can do that.
    You can ask a person for information. You can task him to 
do something. It is hard to task a technical device. And even 
though technical devices are added benefits, and can certainly 
help us in our endeavors, it is the human piece that, in my 
years of experience, have really been deemphasized in terms of 
our, you know, national strategy. It is more of a reliance on 
the technical piece, and the very human piece, the human 
interaction, the relationship development piece is what I 
believe has been shortchanged in the most recent history. But 
it is that human piece that allows us to penetrate the networks 
that do these bad things that harm our country. So the 
challenge, and it is a challenge, is how do you take the good 
technology and apply it to the human piece, and that is a 
challenge.
    In terms of Afghanistan, I had just recently come back from 
Afghanistan, and I was talking to an Afghan Army general about 
GEOINT capability--geospatial intelligence--and what were their 
requirements for this capability. And he was a very practical 
general, he had he fought the Russians during the Russian 
incursion into their country, and he said, Scott, what I need 
is a good map. You know, I don't need the GEOINT capability. 
You know, I need a good map, and then I need your help in 
training the map readers. And again, he focuses on the human 
piece, you know, an individual utilizing a map, and from that 
map you do your targeting, you do your operational planning.
    And I thought that was very insightful from an Afghan 
general that has the ability to get GEOINT, but he says, no, I 
can't sustain it. There is not a legacy here. My people don't 
understand how to work GEOINT because of my lack of education 
here.
    So you have to build systems at a level in which the host 
country can apply it. And that is the lesson that we have 
learned through Legacy and through other experiences that I 
have had in my
career.
    Mr. Thornberry. Switching topics, in your written and in 
your oral testimony, you talked about the importance of DOD, 
and State, Intelligence Community working together, that 
interagency cooperation. Can you offer your thoughts on where 
we are and if you have a suggestion on how that--what can be 
done to improve that moving ahead. And actually for any of you 
who would offer your insights based on your experience about 
how well the Federal Government works with itself, and how well 
the Federal Government takes advantage of the opportunities the 
private sector offers.
    Mr. Jacobs. Thank you for the question, Mr. Chairman.
    The State Department and the Department of Defense have 
enormous resources, personal resources, training capabilities, 
but oftentimes there is--because of the lack of coordination 
between the different parts of the Government, and oftentimes 
the same purpose, we see an ability not to fully leverage those 
resources that both State and both DOD have.
    In many countries that I have been in, you don't have an 
effective police force, and your military force is that police 
force, and so you have to use irregular techniques to train a 
military component. But the problem with the military is that 
the U.S. military is not a police capability; that resides in 
the State Department. And so that is where this cross-
pollination could really be an effective tool to more 
accurately and appropriately teach police skill sets to the 
military component on the ground.
    So that is really what I mean about blending in certain 
environments that we find ourselves in today where that 
leverage would be a powerful U.S., you know, strategy to work 
together to get more done on the ground.
    Mr. Thornberry. Okay.
    Mr. Costa. Chairman, within my domain we have found that 
technology itself can be a point of agreement. And we have used 
one of the systems that was developed by the Assistant 
Secretary of Defense for Research and Engineering called the 
Integrated Crisis Early Warning System as a rallying mechanism 
to bring both the IC [Intelligence Community] and the State 
Department together, in a limited sense at least, around some 
technology that actually does help them forecast and understand 
data. That in itself has created a dialogue which is very, very 
productive. And in addition, using this allows them to more 
fully leverage private industry since some of this technology 
is commercialized, and they are bringing this to bear.
    So MITRE, as a nonprofit FFRDC [federally funded research 
and development center], is helping support this and bringing 
the world to bear in support of these problems. And technology 
is one way that we believe we can bring it together, and we 
are.
    Mr. Cohn. Sir, we have seen actually what I would 
characterize as excellent cooperation in the areas that we get 
to observe. And perhaps I should explain that. Coming at this 
from the perspective of this identity management challenge, our 
biggest concern is how do we collect information about the 
largest group of the population in a cooperative way, because 
it is a lot cheaper and easier to get them to cooperate. So we 
want a national government or equivalent to create some kind of 
a use case where the citizens voluntarily benefit from 
participating, that allows us to kind of deal with the 
``needles in haystack'' problem. Those that comply, it is 
cheaper for us to have that data collected by a friendly 
government, so if whatever sensitivity they need to the local 
culture, the State Department, the community, and Defense 
Department all see the benefit of this, and the programs that 
we have, I believe, are cooperative in this space.
    Ultimately there is a shared interest with the ally abroad 
to share information that can be useful, denying movement to 
adversaries, be able to some degree even target the enemy. And 
it benefits us if we don't have to do the work ourselves, using 
a Western perspective with our local footprint, but rather have 
them, in a sense, helping us, but by dealing with a lot of the 
data collection and even the analysis in many cases.
    But if I can return just to the general issue, you know, in 
terms of technology versus HUMINT, I don't think that is really 
a choice we must make. We will all be living in a world where 
technology continues to flourish around us. If we fail to take 
advantage of mobile computing, of analytics that are available 
to both our adversaries and us, to cloud-based repositories 
that assemble more and more information together, then shame on 
us for failing to do that. On the other hand, that is not a 
substitute for people on the ground, and I don't think it is 
really a choice that we make
directly.
    Mr. Thornberry. Very well.
    Mr. Atallah. Mr. Chairman, with respect to everybody, I am 
not denying that technology doesn't have its uses obviously, 
and I think everybody has said that.
    And in terms of your question on interagency cooperation, I 
think from my experience interagency cooperation is very good 
whenever we are focusing on something kinetic. We tend to come 
together and make solid decisions.
    I think where the interagency still lacks is when it is 
nonkinetic. Decisions are often mired in disagreements, and the 
approach between the various organizations sometimes slows to a 
halt, and therefore it takes a long time to come up with a 
decision on a particular problem set.
    And I think if we can take best practices from how we come 
together in coordinating on a kinetic strike and apply them to 
nonkinetic issues, I think that is where we can see ourselves 
moving forward.
    I find this, again from an African perspective across the 
continent, I have seen this time and time again from my days in 
OSD [Office of the Secretary of Defense], and now as an 
outsider working on the corporate side trying to support 
certain agencies and looking at some of the key issues focused 
on CT [counterterrorism].
    Mr. Thornberry. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Again I want to 
thank our panel of witnesses for being here today and for your 
testimony.
    Before I give my questions, I don't know if he had been 
acknowledged already, but I know the subcommittee has had its 
jurisdiction expanded, adjusted over the last several years, 
but in another incarnation the former chairman of this 
subcommittee Mr. Saxton is in the audience, Jim Saxton. I just 
wanted to welcome you, Mr. Chairman. It is great to have you 
here.
    With that, if I could just turn to our witnesses. I am 
going to start with Mr. Cohn, but if others to like to chime in 
as well. You touched upon this in your testimony, but again, if 
you could speak more broadly about the capabilities that 
biometrics and defense forensics bring to an irregular warfare 
environment, and how useful are those capabilities in a more 
conventional fight?
    Mr. Cohn. Thank you. I appreciate the question.
    We focus a lot of attention on identification technology 
with respect to live samples that we get from people that we 
encounter in real life. That tends to be the economic engine 
that drives us forward. DNA [deoxyribonucleic acid] indexing 
happens to be one of the biometrics that isn't normally used 
that way because you don't get a rapid response. Today it is 
not available in real time.
    But DNA is a biometric. We have, in my company, done the 
algorithm development work and rehosting for CODIS [Combined 
DNA Index System] for the FBI [Federal Bureau of 
Investigation], and so we have some experience with that. We 
have designed some of the kinship analysis protocols, and that 
can play a big role when trying to sort out friend from foe 
even when you don't have a sample from an individual. If tribal 
affiliation is a factor in someone's loyalty, that is one of 
the things you can, in fact, tell from DNA. You also can do 
disaster victim identification, identifying remains based upon 
relatives, using kinship analysis.
    So biometrics has a broader set of use cases than just 
verification of identity for willing subjects. But ultimately 
most of the use cases that we think about commercially involve 
witting subjects who are cooperative. In warfare we are going 
to be in the opposite scenario for the most part. And there 
have been emerging technologies like three-dimensional face 
verification, which we can use at a distance exceeding 20 
meters now to be able to identify with great accuracy and 
biometric precision almost at the level of iris recognition, 
which means that we are dealing with accuracy at the level of 
tens of millions in terms of our discrimination ability. So we 
could have standoff distances, protect facilities that way.
    We also have something called two-and-a-half dimensional 
face, which may seem a little bit odd, where they can use a 2D 
[two-dimensional] facial gallery, compare it to unposed, 
uncontrolled poses in the crowd. We do it for soccer hooligan 
detection in Europe. We might as well do it at IED scenes, 
where we could capture passively images of people around, 
associate them with the images captured at other scenes to be 
able to build a model of whoever you encounter on a frequent 
basis. But those might be examples of biometrics, not civilian 
use, but where they might be used in----
    Mr. Langevin. The last, the facial recognition technology, 
the two-dimensional images, how quickly does that happen? How 
rapidly can you find a cross-check?
    Mr. Cohn. Oh, the matching algorithms are fast enough so 
that you could determine if somebody is on a known, say watch 
list of a magnitude equivalent to our national watch list, in 
real time. In candor, it is not so much the elapsed time, it is 
the number of processors you have behind the scenes to be doing 
those checks in parallel against the known repository. So it 
may be that if we are talking about a tactical scene, that 
processing may be done by server cluster, if you will, not on 
board, say, the mobile vehicle where the cameras and sensors 
reside, if that makes sense.
    Mr. Langevin. Anybody else care to comment on biometrics?
    Mr. Jacobs. I would like to comment very briefly. I think 
when you use biometrics, you have to have really a good domain 
awareness, what is the technical capability on the ground of 
that population. And the reason for that is so you know what to 
use in terms of technology to get the kind of information that 
you need. I think that is an important point here.
    Mr. Langevin. Thank you.
    So for the panel, what partner-nation training capabilities 
are particularly suited in your views to be resident in DOD or 
in industry, particularly with regard to cybersecurity?
    Mr. Cohn. Sir, I am probably the closest person to a 
cybersecurity person here on the panel, so I will thank you for 
the question because it is so important to our society and to 
our partner nations.
    DOD, through NSA [National Security Agency] and through the 
military network defense organizations that are companions with 
NSA, is unrivaled in their ability to perform a mission under 
adverse and hostile network conditions. Having said that, we 
are challenged in theater because of the networks and the 
diversity of circumstances. And I think that we are facing a 
generational challenge to overcome this.
    I appreciate the suggestion we should have DOD training our 
allies. The truth is that we have too many cases that we know 
of of foreign intelligence services likely having penetrated 
systems that we depend upon for security because they are owned 
and operated by our friendly host governments, and they may 
have been designed or built in a way that didn't have first-
rate security safeguards. We have seen cases where a national 
identity system or border control system was having backup 
tapes of the encounter data sent unencrypted overseas to 
another country. So it could easily be penetrated and known, 
but if known, the tapes, in fact, could be altered.
    I don't know if that is typical. That was some time ago. 
But there are a number of situations like that where basic 
cyber hygiene and practices that we think of as kind of 
midlevel protection, not esoteric against high-level threats, 
just the basics, will not be found overseas, and it is very 
important that we share that knowledge.
    Mr. Langevin. It is disappointing, but a good point to 
make. Anyone on that point?
    If I could then, just my final question to Mr. Costa, what 
do you see as the future of the Department's human social, 
cultural and behavioral, or HSCB, monitoring capability after 
the drawdown of forces in Afghanistan?
    Mr. Costa. Thank you for that question.
    I see them as broadly applicable to all the challenges that 
are facing the Department of Defense, you know, the 
Intelligence Community and perhaps even State Department. How 
do we have any sense of short-term instability? How do we 
predict the next Arab Spring? That is a great goal. We can't 
predict the next Arab Spring, but how could we predict it? How 
could we get a sense of awareness of how opinion and behavior 
and sentiment around the world is changing so that leaders like 
you and decisionmakers can get a sense a priori of what might 
be changing? How can we understand how our U.S. messages, 
whether those are words or deeds, are being received around the 
world? How can we understand whether our stability actions in 
country X are having any effect or having our desired effect?
    I believe that the technologies associated with what we 
call this human sociocultural behavior domain have extremely 
broad applicability, and I have seen them applied to a variety 
of missions already--countering WMD, countering proliferation, 
in addition to irregular warfare. So I see the condition quite 
bright for the applicability of these technologies.
    Mr. Langevin. Thank you.
    With that I have no further questions. I will yield back 
and again thank the chairman for holding the hearing, but also 
to our witnesses for your testimony. Thank you for the work you 
are doing.
    Mr. Thornberry. I thank the gentleman.
    Mr. Costa, is that sort of modeling more challenging in a 
tribal society or----
    Mr. Costa. Well, sir, it is always challenging. The 
modeling is always challenging. And frankly, the more granular 
you become, the smaller the group you try to model becomes, in 
some senses it gets more challenging to do it that way. 
Strategic modeling, while challenging, may be just modeling 
nation-state interaction.
    Mr. Thornberry. Yes, yes.
    Mr. Costa. Incredibly complex. But now when we want to go 
subnationally and model competing groups, we have to have far 
more data and model to more precision. And in some cases it can 
be done, but yet the reusability of that model becomes a 
question. So nations don't change quite that rapidly, but 
groups can. And so that sort of modeling gets quite complex.
    So I think while this technology is very applicable to 
regular warfare, when we start to move toward subnational and 
national levels, it gets even more possible and even perhaps 
more effective.
    Mr. Thornberry. Interesting.
    Let me, if I could, kind of broaden back out to the general 
topic that we are thinking about today, irregular warfare. My 
view is that we are going to have a lot more of this in various 
places all around the world. I think that is inevitable. And I 
take the point that at least some elements of DOD and other 
agencies kind of want to turn the page and go back to regular 
warfare. There is resistance to that.
    But I guess I would be interested from each of you as to 
what sort of capabilities should we look for DOD to retain in 
thinking about irregular warfare; what sorts of capabilities 
does it make more sense for DOD to engage the private sector to 
obtain; and talk about, at least based on your experience, that 
interaction of DOD choosing to engage the private sector and 
how well or how poorly that works. So kind of a broader 
question. Thinking about irregular warfare, what does DOD need 
to be able to do itself; what can it hire out; and that 
interaction between the two, oversight, if you will, 
procurement, where the two come together, how is that going, 
and how can it be made better?
    Mr. Atallah. Mr. Chairman, thank you very much for your 
question.
    I guess I would start by saying in order to employ proper 
IW technologies, I think it is important to define where we 
want to go, what we want to do. And at times that is not very 
clear, and therefore it becomes difficult to figure out what 
type of technologies to use.
    So if we take issues like Libya, or Syria today, or Mali, 
or whatever is going on, first and foremost we have to define 
what we want the warfighter to achieve at the end, and that is 
a political process, I think, that would just--at that in 
terms----
    Mr. Thornberry. I don't want to interrupt. So you have got 
to know what your goal is before you can decide what the 
capability is that you need to have or to procure?
    Mr. Atallah. Or to procure or invest in.
    Mr. Thornberry. That has got to be country or case-by-case 
basis?
    Mr. Atallah. And so it just depends on what the long-term 
goals, where our focus is going to be for the up--for the near 
future. I guess it just boils down to having an end goal in 
order to--because as I view it, if we are talking about a 
resource-constrained environment, and we have a shrinking 
budget, we have to use our resources in an effective way, and 
therefore we have to pick what we actually invest in.
    Technology is great, but I am a former aviator by trade, so 
we invest in large-ticket items that cost billions of dollars 
when we can employ less amount of money in technologies that 
can give us more bang for the buck depending upon where we are 
going. So that would be one.
    I think I mentioned in my testimony when I talk about AFPAK 
Hands, that is a great program that can be employed, for 
example, with our regional centers in making our warfighters 
smarter on particular regional areas of the world with 
longevity; meaning that, you know, when we cycle our soldiers 
out on the battlefield, typically they will have 2 or 3 years 
in country, and they push out, and then a new person has to 
relearn the new. But when we have longevity in a particular 
environment, we become smarter, and therefore we know what 
technologies to employ based on that environment that we have 
been living in or operating in for long periods of time. I 
think that would be the case that I would make.
    And so there is no silver bullet for this question, but, 
you know, the key is defining truly where we want to go in the 
future. And I would leave it at that.
    Mr. Thornberry. And I will just comment. I think you are 
right. Resource-constrained environment, and yet we need to 
invest ahead of time in the people to have the cultural-social, 
language capabilities for those places, and that is going to be 
hard in a resource environment. But your point about the 
importance of that, the irreplaceability of that when you get 
into a situation strikes a cord with me, but I think there is 
going to be that tension. I think you are right about that.
    Mr. Atallah. Yes, sir. I mean, obviously, again, there is 
no perfect answer. The enemy is evolving all the time, our 
issues are evolving all the time. So I think when we go back to 
basics, and this is probably the point that I am trying to 
drive home in what I am saying today, is the sociocultural 
aspect, I think, in everything is extremely important in order 
to drive where we resource our technologies to be effective in 
particular problem sets around the world. When I understand the 
environment, say, for instance, in Lebanon and Syria, and I 
have spent enough time studying it, I will know what 
technologies to employ in that particular environment to 
achieve the end results of what our political process is asking 
me to do.
    Mr. Thornberry. Okay. Thank you.
    Mr. Cohn. Mr. Chairman, I want to be careful how I respond 
to that. I would like to start, if you don't mind, just by 
talking for a moment about what it is that I do for a living. 
My job is to look at commercial technologies and try to figure 
out where they are cost-effective and applicable to our 
Government's missions; and likewise, to look at the 
Government's developed technologies that we are familiar with 
to see whether they are cost-effective and of value in the 
private sector. Because my company, three-quarters of our 
customers are outside the U.S. Federal Government, and that is 
how we bring value. So we spend a lot of time trying to look at 
technologies like what I mentioned in my statement earlier 
regarding personal authentication.
    But I would suggest that perfect is the enemy of good, in 
austere budgets we can't afford to have ambitious, unrealistic 
stretch objectives driving the way that we build systems and we 
specify them. I don't think we can afford to have shortfalls 
and capability where they are vital, but I think it is a very 
difficult trade-off. And I think we can learn a bit from our 
commercial programs where there are capabilities that might be 
good enough and have defense-grade security capabilities built 
in even if they don't necessarily meet the full list of desired 
functionality. That may be the best we can afford in some 
cases, because the alternative may be providing no capability 
whatsoever.
    And with respect to our current Defense Department and how 
it handles information technology, I think there is a lot of 
progress to look at commercial platforms to see how they can 
apply. The latest Army NIE [Network Integration Evaluation], 
the integration evaluation, used a commercial smartphone from 
Samsung as the display unit for maps tied to the Rifleman 
Radio. That, I think, is an example of what we have no choice 
of what to do because we can't afford to build ruggedized, 
military-grade devices that cost 10 times or 100 times as much.
    I think the same thing is going to be applied more and more 
across the spectrum. And my guess is that we will end up with 
bigger bang for our buck, if you will, but we may also find 
cases where we have to still deal with specialized development 
of a custom solution because the military does have unique 
needs, and balancing that will become the issue.
    Mr. Thornberry. So you see the trend, because of tight 
budgets, among other reasons, to using more commercially 
available technology and making it fit, I guess the ``good 
enough,'' particularly when we are trying to build partnership 
capacity.
    Mr. Cohn. Sir, it is not just because of tight budgets; it 
is also because of the accelerated pace of change. If you stuck 
with custom platforms like we used to build to put down the 
hatches of the nuclear submarines, you would have computers 
like on the Apollo capsule. If you use commodity IT servers 
that are coming out that can be configured with virtualization 
of the cloud, they are so much cheaper, but they are less 
reliable. If we cluster them together, they work fine.
    I think it is also the fact that we want to harness that 
innovation in the private sector, but we can't do it unless we 
accept the commercial platforms are modified.
    Mr. Costa. Sir, I would actually start by addressing a 
point that my colleague to the right just made. I believe that 
absolutely there is much commercial technology that the 
Department of Defense and the Federal Government can leverage 
in the domain that I am speaking to you, in this human terrain 
domain. There is much technology that can be leveraged, and 
that is being done. However, there are certainly things that 
aren't be done by commercial industry, and that has to be done 
by DOD research. But yet that DOD research needs to transition 
to the warfighter to programs of record and perhaps back to 
commercial industry, because that way we both stimulate the 
economy, and we get that technology into commercial solutions 
that are then available for the broader Government to bear 
under challenges.
    So I believe that it is both; that we have to leverage 
commercial technology, but yet the results of DOD research can, 
in fact, go back into that and stimulate the economy and bring 
value to the warfighter. But I believe there are low-cost 
technologies that allow us to understand violent extremists, 
their networks, their groups, and the spread of their messages, 
and that is key to irregular warfare. And people on this panel 
that conduct such analysis can use tools like this to achieve 
that understanding, at least at some level, while they conduct 
their deeper understanding.
    We also have some technologies that allow us to understand 
the effects of our messages, and they are still in their 
infancy. I am not overpromising that any of these technologies 
are a magic or silver bullet, but they allow us to understand 
some of the effects. And we are pushing beyond just 
correlation; we are pushing towards causation: We said the 
following, and, based on that, this happened, and that was 
because of our actions. We are pushing toward that. That is a 
promise, but not yet here.
    In addition, we have technologies that allow us to do 
course-of-action analysis. So if we do X, then Y, we expect the 
best result to happen. So that also has pertinence to irregular 
warfare.
    So I think with that there are clear things that DOD and 
the private sector can do. DOD has a clear mission to conduct 
this irregular warfare. Contractors, companies can help with 
that in engaging. However, in my domain we can help deeply in 
helping technology and bringing that to bear on this mission.
    Mr. Thornberry. And how effective is DOD at figuring out 
what it needs to invest in itself versus let the private sector 
do?
    Mr. Costa. Well, personally I have spent a lot of time with 
the Assistant Secretary of Defense for Research and Engineering 
staff on the human sociocultural behavior program, and we 
monitor the commercial environment and work closely with them, 
so we never willingly, knowingly build something that we could 
buy. We keep close track of where commercial industry is.
    Mr. Thornberry. So you think at least in that area it is 
working pretty well. Keep track of what the commercial sector 
is doing so you don't duplicate, and then at the same time 
figure out the key areas where DOD dollars need to be invested.
    Mr. Costa. Absolutely. I believe that we have done a good 
job in this area. In fact, in this area we are transitioning 
some of these technologies to commercial companies to, again, 
close that loop and make those more broadly available. So I do 
think this is a success story.
    Mr. Thornberry. I am not sure that is the case in all 
areas, but I am glad to hear success stories when I can find 
them.
    Mr. Jacobs.
    Mr. Jacobs. Thank you again.
    Contractors should not collect information. Contractors 
should not be tasking individuals to collect information. That 
is an
inherently governmental function to collect human intelligence
information.
    Contractors, on the other hand, can mentor, train, and 
advise very effectively, and, through observations on the 
ground, one of the key capabilities of the contractor community 
is sustainment.
    The military has an unbelievable rotation cycle, the 
OPTEMPO [operational tempo] is just an incredible, difficult 
thing for our military commanders to manage. They come to 
Afghanistan for a year and leave. Contractors, on the other 
hand, have been--I mean from my experience have been on the 
ground for years in Afghanistan doing the mentoring and 
training, and developing those key relationships that are 
required to do this kind of work.
    So that is a differentiator between a contractor 
sustainment over a period of time versus the military.
    The other item that I would like to point out to is that 
the Congress has invested heavily in the past 10 years, since 
9/11, in a lot of technologies. Lots and lots of good things 
have come from that investment. But what my observations have 
been over time is that we don't institutionalize the success 
stories, the things that really work, the technologies that 
really work. And we need to have some resource, some font where 
that is captured and not lost, and the investment that has been 
made, hundreds and millions of dollars, will not be lost to the 
future battles that we will find ourselves in.
    We all agree that there are many unsettled states out 
there, and the technologies that we talk about here will be 
required. And we know from industry, really through independent 
assessments and some other tools that we have employed based 
upon Congress' tasking of those things, we know they work. So 
we need to capture those things. I don't want that to be lost 
here today. And----
    Mr. Thornberry. Capture how?
    Mr. Jacobs. We need to capture it in doctrine, in strategy. 
We need to capture it in schoolhouses by which we teach our 
leaders; in which we teach, train, and equip our soldiers; we 
train and equip our State Department foreign specialists, our 
police advisors. We need to capture these lessons learned, we 
really do, and it needs to be written down, or it will be lost.
    Mr. Thornberry. Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman, and thank all of you 
for being here. I know you all contribute in many different 
ways, many times in your own specific esoteric way, to 
strengthen the national security of this Nation, and I truly 
appreciate it.
    I am going go ahead and just do a shout-out here. Former 
Congressman Saxton is in the room here, too. He was here when I 
came into Congress 11 years ago. And that doesn't mean he is 
old; that just means he was here. But always grateful to see 
him.
    Mr. Jacobs, if I could, I would like to direct my question 
to you, sir. Can you share some of the metrics that highlight 
the successful implementation of these human intel-based 
programs? You know, I just think that obviously all of us knows 
the real, best intelligence is boots-on-the-ground, human 
intelligence, and I would like to get sort of these metrics or 
the results of some of your human intelligence programs. I 
mean, how many lives do you think you and your team have been 
able to actually save, and has that been as a direct result of 
their sort of unique role in the human terrain? I will follow 
up if I need to, but it gives you sort of a flavor.
    Mr. Jacobs. Sure. Thank you for the question.
    There have been great capacity built in the last 4 years on 
the part of the security forces in Afghanistan both on the 
police side and on the army side. The results of that mentoring 
and training has resulted in hundreds of insurgents being 
captured or killed. I think, you know, probably my last count, 
over 600 insurgents have been captured or killed. The weapons 
of insurgency have been taken out of production, in terms of 
kilograms of the chemicals that are used to hurt and harm and 
kill our soldiers and marines.
    But the more tangential, the more direct is to see the 
incredible capacity that has been started years ago from a zero 
now probably to, out of 10, a level five, a level six in terms 
of their ability to collect information, analyze that 
information, target and take down the bad guy.
    I was in Afghanistan again several weeks ago. There was an 
attack at the airport. Three years ago that SWAT [Special 
Weapons and Tactics] capability by the police would have taken 
days to resolve. This was done in about 4 to 5 hours. They 
came, they identified, they secured the perimeter to protect 
the public, and killed the bad guys. Pretty impressive. Pretty 
impressive. That is progress. That really is tangential 
progress on the ground.
    And so I don't want to get into a lot of specifics, but one 
of the beauties that I think every successful program needs to 
have an independent analysis by a third party to look at it and 
to kick the tires. It is very important. And the RAND 
Corporation has done that on our Legacy program, funded by the 
United States Congress, to look at whether or not this truly is 
a unique capability that we should have. And the studies have 
begun in 2008, and they go on to this day. Legacy is probably 
one of the most unique programs that have been countless 
studied by RAND, and without a doubt they show clearly that 
these kinds of programs work, and that we should have this 
capability in our arsenal, in our toolbox of irregular warfare.
    The other thing that the RAND Corporation has talked about 
is the measures of effectiveness that we go into, and we 
measure--we have 500 data points, and I am not going to get 
into all the details of that, but those data points measure--
are quantifiable and measurable to the outcomes of the program. 
And it ensures that the taxpayers are getting their money's 
worth, that this program actually works. And that is why we do 
what we do.
    So I know I have been rambling a little bit and covered a 
lot of things, but----
    Mr. Franks. Mr. Chairman, if you would afford me just one 
last followup here, because I have been listening very 
carefully to what you are saying, and I am wondering if you 
might have--because I know it is impossible to get into some of 
the minutiae, but if you might have some sort of compilation of 
some of the things that we are talking about here today, and, 
as you know, especially that you could give us to that would 
have an impact not only to the members of this committee, but 
to the larger membership of the Armed Services Committee.
    And as we move forward, it seems especially important with 
this transition period in Afghanistan where combat operations 
will soon draw to a close, would you say programs like this 
will increase or decrease in importance? And what are some of 
the hardware tools that best suit operators who are trying to 
build intelligence capacity in this environment? You know, it 
especially seems like a relevant question given that some of 
the majority of our Afghan partners are still using technology 
like flip cell phones.
    Mr. Jacobs. That is right. That is right.
    Mr. Franks. I would love to get some sort of written 
overview of this, because if this is saving lives, and you are 
saying--your testimony is that this is saving lives----
    [The information referred to can be found in the Appendix 
on page 79.]
    Mr. Jacobs. It is saving lives.
    Mr. Franks [continuing]. Of American and coalition lives.
    Mr. Jacobs. Yes, yes.
    One thing I would caution. A lot of things get caught up in 
drawdowns, you know, and we need to be very careful not to cut 
the ability to build capacity by our allies. And my concern is 
that in the rush we don't leave a true capacity on the part of 
our Afghan partners to penetrate networks. And that needs to be 
sustained, mentored, and continued to be nurtured on the part 
of the United States of America.
    Mr. Franks. Thank you, Mr. Chairman.
    Mr. Thornberry. Mr. Atallah, we have got security 
challenges all across Africa. Would you foresee that it would 
make sense for the Government to hire companies to help build 
capacity, improve security forces in some of the various 
countries you are familiar with?
    Mr. Atallah. Mr. Chairman, thank you very much for your 
question.
    Certainly companies can provide capabilities, absolutely. I 
think these companies need to be carefully selected. I think we 
need to also carefully select what we employ, because as we 
make certain countries more capable, we also--at the same time 
the enemy becomes more capable in time, adjusting to, you know, 
what the realities are on the ground. And so we got to define 
that and figure out what we are trying to achieve; again going 
back to my earlier statement is what is our end game? Once we 
define that, we can obviously employ--there are places across 
the Sahel; of course, in Somalia now, we are looking at 
tensions between, you know, the two Sudans, and Egypt and 
Ethiopia. These are going to continue to fester. And there are 
certainly places with our small companies like we see here, or 
mine, where we can bring in some of that; we can bridge the gap 
between usage of proper, well-fitted technologies into specific 
cultures to achieve the end means that we are aiming for.
    And I always go back to the problem is not what we are 
capable; we can do a lot of stuff. The thing is, are we doing 
the right things? That is the question is what does right look 
like at the end? And I think that is important to actually 
answer.
    Mr. Thornberry. Great.
    Well, thank you all. I appreciate it. I think this is going 
to be a topic that occupies us a lot in the years to come, and 
each of you have helped enlighten me at least on how to move 
forward. So again, thank you for being here, thank you for your 
testimony, and thank you for your patience on our interruption. 
With that the hearing stands adjourned.
    [Whereupon, at 12:23 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             June 28, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 28, 2013

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 28, 2013

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. FRANKS

    Mr. Jacobs. See attached. [See page 22.]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 28, 2013

=======================================================================

      
                   QUESTION SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. In Unisys' experience of integrating biometrics 
solutions for international customers, what lessons have you seen that 
might be applied to our own biometrics challenges?
    Mr. Cohn. See attached.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
